No. ____
IN THE

Supreme Court_________
of the United States
LENWOOD HAMILTON, A/K/A HARD
ROCK OR SKIP HAMILTON,
v.

Petitioner,

LESTER SPEIGHT, A/K/A RASTA THE
URBAN WARRIOR, A/K/A AUGUSTUS
“COLE TRAIN” COLE; EPIC GAMES,
INC.; MICROSOFT, INC., A/K/A
MICROSOFT CORP.; MICROSOFT
STUDIOS; THE COALITION,
_________

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
_________
PETITION FOR A WRIT OF CERTIORARI
_________
TILLMAN J. BRECKENRIDGE
Counsel of Record
BRECKENRIDGE PLLC
1325 G Street NW
Suite 500
Washington, DC 20005
Telephone: 202-567-7733
tjb@breckenridgepllc.com
Counsel for Petitioner

QUESTIONS PRESENTED
Epic Games used Lenwood “Hard Rock”
Hamilton’s face and voice in its billion-dollar Gears of
War video game franchise without his permission.
The Third Circuit used a version of the Supreme Court
of California’s “transformative use test” to determine
that Epic Games had a First Amendment right to use
Hamilton’s image and voice without his permission.
The questions presented are:
1) whether the First Amendment right to free
speech protects using a person’s actual
likeness without permission when weighed
against that person’s property, privacy, and
dignity rights against unauthorized use of his
likeness, and
2) whether the First Amendment right to free
speech protects a video game maker’s
unauthorized use of a person’s face and voice
in a game?

ii
PARTIES TO THE PROCEEDINGS
AND RELATED PROCEEDINGS
The Petitioner in this case is Lenwood Hamilton,
an individual. Petitioner was the plaintiff and
appellant below.
The Respondents are Lester Speight, Epic Games,
Inc., Microsoft Inc., Microsoft Studios, and The
Coalition, which were defendants and appellees
below.
The related proceedings are:
1) Hamilton v. Speight, 413 F. Supp. 3d 423 (E.D.
Pa. 2019) – Judgment entered September 26,
2019; and
2) Hamilton v. Speight, No. 19-3495, 827 Fed.
Appx. 238, 2020 WL 5569454, (3d Cir. 2020) –
Judgment entered September 17, 2020.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDINGS AND
RELATED PROCEEDINGS ........................... ii
TABLE OF AUTHORITIES ....................................... v
INTRODUCTION ....................................................... 1
PETITION FOR A WRIT OF CERTIORARI ............ 3
OPINIONS BELOW ................................................... 3
JURISDICTION ......................................................... 3
STATUTORY PROVISIONS INVOLVED ................ 3
STATEMENT OF THE CASE ................................... 3
A. The defendants incorporate Lenwood
Hamilton’s image and voice into a
character, Augustus Cole, for their
popular Gears of War video game. .................. 3
B. The defendants give Cole a personality
abhorrent to Hamilton..................................... 5
C. Hamilton sues the defendants for
misappropriation of his likeness, and
the district court ultimately grants
summary judgment in the defendants’
favor based on the transformative use
test. ................................................................... 6
D. The Third Circuit affirms, applying a
version of the transformative use test

iv
that allows nearly unlimited use of a
person’s actual likeness without
permission. ....................................................... 8
REASONS FOR GRANTING THE WRIT ................. 9
I.

THE CIRCUITS AND STATE COURTS
OF LAST RESORT ARE DIVIDED ON
WHEN THE FIRST AMENDMENT
PROTECTS USING A PERSON’S
ACTUAL LIKENESS. ......................................... 9

II. THIS CASE PRESENTS A QUESTION
OF EXCEPTIONAL IMPORTANCE. ............... 19
CONCLUSION ......................................................... 24
APPENDIX
APPENDIX A: Opinion of the United
States Court of Appeals for the Third
Circuit (September 17, 2020) ........................ 1a
APPENDIX B: Opinion of the United
States District Court for the Eastern
District of Pennsylvania (September
26, 2019) ......................................................... 7a
APPENDIX C: judgment of the united
states court of appeals for the third
circuit (September 17, 2020) ....................... 31a
APPENDIX D: statutory provision
involved ........................................................ 33a

TABLE OF AUTHORITIES
Page(s)
Cases
Burns v. Pa. Dept. of Correction,
544 F.3d 279 (3d Cir. 2008) ...................................10
C.B.C. Distrib. & Mktg. v. Major League
Baseball Advanced, L.P.,
505 F.3d 818 (8th Cir. 2007)............................ 15, 18
Campbell v. Acuff-Rose Music, Inc.,
510 U.S. 569 (1994)................................................17
Cardtoons, L.C. v. Major League Baseball
Players Ass’n,
95 F.3d 959 (10th Cir. 1996)..................................13
Comedy III Prods., Inc. v. Gary Saderup,
Inc.,
25 Cal.4th 387 (2001) ................................ 12, 13, 19
Doe v. TCI Cablevision,
110 S.W.3d 363 (Mo. 2003) .............................. 14, 15
Eldred v. Ashcroft,
537 U.S. 186 (2003)................................................19
Hart v. Elec. Arts, Inc.,
717 F.3d 141 (3d Cir. 2013) ........................... passim
Matthews v. Wozencraft,
15 F.3d 432 (5th Cir. 1994)....................................12
Parks v. LaFace Records,
329 F.3d 437 (6th Cir. 2003)..................................12
Rakas v. Illinois,
439 U.S. 128 (1978)................................................10

vi
TABLE OF AUTHORITIES
(CONTINUED)
Rogers v. Grimaldi,
875 F.3d 994 (2d Cir. 1989) ............................. 11, 12
Zacchini v. Scripps Howard Broad. Co.,
433 U.S. 562 (1977).......................................... 10, 11
Other Authorities
Amanda Tate, Note: Miley Cyrus and the
Attack of the Drones, 17 Tex. Rev. Ent. &
Sports L. 73 (Fall, 2015) ........................................21
Caitlyn Slater, Comment: The “Sad
Michigan Fan”: What Accident-ally
Becoming an Internet Celebrity Means in
Terms of Right of Publicity and
Copyright, 2017 Mich. St. L. Rev. 865
(2017)......................................................................22
Eric E. Johnson, Disentangling the Right of
Publicity, 111 Nw. U.L. Rev. 891 (2017) ......... 10, 11
Joseph Bernstein, How HBO Unwittingly
Helped Create Insanely Hardcore “Game
of Thrones” Porn, Buzzfeed News, Feb.
11, 2015 ..................................................................23
Matthew R. Grothouse, Collateral Damage:
Why the Transformative Use Test
Confounds Publicity Rights Law, 18 Va.
J.L. & Tech. 474 (Summer 2014) ............................9
Maya Shwayder, Why Deepfakes Will Soon
Be as Commonplace as Photoshop,
Digitaltrends, Dec. 13, 2019 ..................................22

vii
TABLE OF AUTHORITIES
(CONTINUED)
Naled Ushe, Celebrities Who Don’t Talk
Politics: ‘Nobody Cares’, Fox News, Nov.
1, 2020 ....................................................................21
Patrick Cronin, Historical Origins of the
Conflict Between Copyright and the First
Amendment, 35 Colum. J.L. & Arts 221
(Winter 2012) .........................................................23
Restatement (Second) of Torts, § 652 C .....................9
Robert C. Post & Jennifer E. Rothman, The
First Amendment and the Right(s) of
Publicity, 130 Yale L.J. 86 (October,
2020) ........................................................... 17, 18, 19
Samantha Cole, ‘They Can’t Stop Us:’
People are Having Sex with 3D Avatars
of Their Exes and Celebrities, Vice, Nov.
19, 2019 ..................................................................23
The Right of Publicity and Autonomous
Self-Definition, 67 U. Pitt. L. Rev. 225
(Fall 2005) .................................................... 9, 18, 21
Tim Simonite, Forget Politics. For Now,
Deepfakes are for Bullies, Wired, Sept. 4,
2019 ........................................................................23

INTRODUCTION
Quoting a brief of amici curiae, the Third Circuit
expressed serious concern in Hart v. Electronic Arts,
Inc. that some variations of the “transformative use
test” could lead a court to wrongly find that there is a
First Amendment right to place the image of the Dalai
Lama or the Pope in a violent shoot-em-up game
against their wishes. 717 F.3d 141, 167 (3d Cir. 2013).
That fear is now realized.
Courts have wrestled with the First Amendment
implications of using someone’s likeness for decades.
And without this Court’s guidance, they have
developed myriad tests for determining when a person
has a right to exclude others. The most prominent test
is the Supreme Court of California’s “transformative
use test,” which the Third Circuit adopted and
modified. But other tests have arisen. The Supreme
Court of Missouri adopted the “predominant use test.”
And the “relatedness test” has been used by Second
and Fifth Circuits. The Sixth Circuit has used both
the “relatedness test” and the “transformative use
test.” Other circuits and state courts of last resort
have used other methods of resolving these issues.
Here, the Third Circuit held, under the transformative use test, that the First Amendment
provides companies a constitutional right to take a
person’s exact likeness and use it in videogames or art
or film, so long as the likeness is used in an
uncharacteristic way—in this case, changing the
person’s outfit and having him battle space aliens in a
violent and gory video game. Indeed, it ruled that
Hamilton’s disgust with how Epic Games used his
likeness weighed in favor of protection.

2
Under the Third Circuit’s standard, a
pornographer can use the likeness of a star actress
who has never done a nude scene to create a CGI
pornographic film. A person can use a holographic
version of a pro-gun celebrity actor to give a concert in
support of gun control. And, as here, a video game
company can take a pacifist’s face and voice and
plaster it as a primary character in a war-raging video
game. Indeed, neither the district court nor the Third
Circuit offered a limiting principle as to how their test,
if broadly adopted, would not create a free speech
right allowing a filmmaker to include an entire song
in a movie. The First Amendment free speech clause
does not protect theft of a person’s likeness in the
name of “art” any more than it protects theft of a
person’s song or artwork. But the Third Circuit’s
determination that incorporative use—transferring a
literal depiction of a person into a larger work—is the
same as “transformative” use and creates exactly that
right.
This is an issue of extreme importance now that
technological advance allows anyone to manipulate a
person’s face and voice digitally. The Court should
grant the writ and resolve the disjointed recognition
across courts on how the First Amendment applies to
using a person’s actual likeness. And it should hold
that, absent certain facts rendering it core speech and
accounting for the victim’s privacy, dignity, and
property, there is no protection for using a person’s
actual likeness without permission.

3
PETITION FOR A WRIT OF CERTIORARI
Petitioner Lenwood Hamilton respectfully petitions this Court for a writ of certiorari to review the
judgment of the United States Court of Appeals for
the Third Circuit in this case.
OPINIONS BELOW
The opinion of the Third Circuit is currently
unreported, and it is reproduced at page 1a of the
appendix to this petition (“App.”). The District Court’s
opinion is reported at 413 F. Supp. 3d 423 and is
reproduced at page 7a of the appendix to this petition.
JURISDICTION
The opinion and order of the Third Circuit denying
affirming the district court’s opinion was entered
September 17, 2020. App. 1a. This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The text of the relevant statute is set forth in the
appendix to this petition. App. 33a.
STATEMENT OF THE CASE
A. The defendants incorporate Lenwood
Hamilton’s image and voice into a
character, Augustus Cole, for their
popular Gears of War video game.
After being a high school football star and playing
Division I football, Plaintiff Lenwood Hamilton had a
promising chance to play in the NFL. JA405. But he
was falsely accused of rape, convicted, and only
cleared—and his conviction overturned—after discovery that a prosecution witness lied at trial. JA4445. After prison, he had trouble catching on with a

4
team, but he got to play a short stint with the
Philadelphia Eagles in the 1987 season. JA03, 252.
Hamilton ultimately became a professional
wrestler. JA04, 253. He developed a character named
Hard Rock Hamilton and in the 1990s, he was able to
develop his own wrestling organization, Soul City
Wrestling—a family-friendly entertainment organization. JA04. Soul City held bouts mostly in and around
Philadelphia, and Hamilton used Soul City as a
platform to spread his messages to kids about drug
awareness and the importance of an education. JA05,
405-07. Soul City reached a wide audience through
numerous television and newspaper stories. App. 9a.
In 1998, shortly after Hamilton started Soul City,
Defendant Lester Speight joined, performing as
“Rasta the Voodoo Mon.” App. 10a. The two soon
discussed Speight’s plans for developing a violent
video game, and Hamilton told Speight that he did not
want to take part in glorifying murderous violence.
App. 10a. A couple years later, development began on
what would ultimately become an extremely popular
video game: Gears of War. JA416. “Gears of War is
an extremely violent cartoon-style fantasy video game
series.” App. 10a. It takes place on a fictional planet
where human characters fight “a race of exotic
reptilian humanoids.” App. 10a. The game’s plot line
focuses on a four-person squad of fictional characters
battling the reptilian humanoids, one of which is
“Augustus Cole.” App. 11a.
Cole “is a large, muscular, African American male
who is a former professional athlete who played the
fictional game thrashball, a highly fantastical and
fictionalized sport that loosely imitates American
football in some ways.” App. 11a. “Cole and Hamilton

5
share broadly similar faces, hair styles, races, skin
tones, and large, muscular body builds.” App. 11a.
They are so similar that Hamilton’s son and his
friends referred to Cole as “Mr. Hamilton” when they
played the game. JA409. And a facial recognition
expert has testified that Hamilton’s likeness is that of
Cole. JA410, 472-73. Indeed, pictures from Exhibits
B and C of the district court’s opinion, App. 28a-29a,
show an uncanny similarity.

They also share similar voices. Op. 4. People who
have heard the two voices testified that they sound the
same, and a voice expert has confirmed that they are
virtually identical, JA410, 446.
The striking similarities between Hamilton and
the Cole character are no coincidence. “Speight had
input into how the Cole character looked and had
influence over the character.” App. 12a. Indeed,
Speight “decided which voice to use for Augustus
Cole,” App. 11a, and provided the voice, JA419.
B. The defendants give Cole a personality
abhorrent to Hamilton.
Defendants put Cole in military gear for the first
two Gears of War games, and in the third, game
players can “obtain alternative ‘skins’” with different
outfits. App. 12a. They also gave him a violent
personality. App. 12a. Hamilton was offended at his

6
likeness being used on the character because he “‘is
ignorant, he’s boisterous and he shoots people, he
cusses people out.’” App. 22a. The character’s portrayal is “‘totally against what [Hamilton] believe[s]
in.’” App. 22a. And the Cole character stands in direct
opposition to what Hamilton was trying to do with
Soul City Wrestling. App 22a-23a.
C. Hamilton sues the defendants for
misappropriation of his likeness, and the
district court ultimately grants summary
judgment in the defendants’ favor based
on the transformative use test.
Hamilton sued the defendants for violation of his
right of publicity, including four counts: (1) unauthorized use of name or likeness under 42 Pa.
C.S.A. § 8316, (2) common law misappropriation of
identity, (3) common law invasion of privacy, and
(4) unjust enrichment. App. 7a n.1.
Defendants moved for summary judgment on the
ground that they have a First Amendment free speech
right that outweighs Hamilton’s ownership of his own
likeness. App. 14a. The district court agreed. App.
14a. Citing the Third Circuit’s decision in Hart v.
Elec. Arts, Inc., 717 F.3d 141, 150 n.12 (3d Cir. 2013),
the court purported to apply the transformative use
test to balance the defendants’ First Amendment
interests against Hamilton’s interest in his own
likeness. It stated that the Third Circuit required
determining whether the plaintiff’s “identity” has
been transformed, considering both the plaintiff’s
likeness and biographical information. App. 20a.
According to the district court, in video games, the
context provides the biographical information
comparison, such that the character must do in the

7
game what the plaintiff does in real life. App. 22a23a.
With respect to Cole’s physical characteristics, the
district court stated it and Hamilton have “similar
faces, hair styles, skin tone, and large body build.”
App. 22a. It did not address the evidence that
children playing the game identified Cole as looking
like Hamilton, nor did it mention the expert testimony
that the physical and vocal likenesses between
Hamilton and Cole are virtually identical. But the
court appeared to presume that Cole adopted
Hamilton’s actual physical likeness, as it relied on
other factors to find the defendants’ design of the Cole
character “transformative.” App. 22a-23a.
The district court compared pictures of the Cole
character and Hamilton, asserting that, despite the
similarities in various aspects of personal physical
appearance, the defendants “transformed” Hamilton’s
likeness by putting him in different outfits, giving
Cole a personality Hamilton finds abhorrent, and
placing him in a “fantastical” environment. App. 21a.
The biographical information differed because, of
course, Hamilton never battled “cartoonish reptilian
humanoids” and the Cole character does not “engage
in professional wrestling” in the game. App. 21a.
According to the district court, Hamilton was just a
“raw material” and not the “sum and substance” of
Cole’s character, as if a defendant must mimic the
entire look and personality of a person to lose First
Amendment free speech protection stealing someone’s
image and voice. App. 21a.
The court did not explain any limiting principle
that would stop the defendants from placing Hulk
Hogan, Michael Jordan, or Jennifer Lawrence’s face,

8
body, and voice on Cole as an unchallengeable
expression of their First Amendment free speech
rights.
D. The Third Circuit affirms, applying a
version of the transformative use test that
allows nearly unlimited use of a person’s
actual likeness without permission.
Hamilton appealed to the Third Circuit, arguing
that there is only a narrow free speech right when
using someone’s actual likeness. In an unpublished
decision relying on its published opinion in Hart, the
Third Circuit offered no assistance, further explanation, or limitation on the use of a person’s actual
likeness in any context so long as it is somewhat
different from his or her profession. The court noted
that “Hamilton and Cole have similar skin colors,
facial features, hairstyles, builds, and voices.” App.
4a. But it also ruled that “significant differences
reveal that Hamilton was, at most, one of the ‘raw
materials from which [Augustus Cole] was synthesized.’” App. 4a (citation omitted). None of these “significant differences” involved Hamilton’s appearance
or voice.
Instead, the “differences” were professional—Hamilton does not fight aliens and never
served in the military—as well as Cole’s violent
personality. App. 4a-6a. According to the Third
Circuit, this rendered Hamilton’s likeness “‘so
transformed that it has become primarily the
defendant’s own expression,’” and it affirmed the
district court’s decision. App. 6a.

9
REASONS FOR GRANTING THE WRIT
I. THE CIRCUITS AND STATE COURTS OF
LAST RESORT ARE DIVIDED ON WHEN
THE FIRST AMENDMENT PROTECTS
USING A PERSON’S ACTUAL LIKENESS.
“The right of publicity grew out of the right to
privacy torts, specifically, from the tort of ‘invasion of
privacy by appropriation.’” Hart, 717 F.3d at 150. It
protects four particular interests: “(1) the personal
injury of unwanted and unwarranted public exposure;
(2) the personal, noncommercial, injury of compelled
speech and false association; (3) the unfair
competition claim of false endorsement or false
connection; and (4) the unauthorized commercial
misappropriation of an individual’s name, identity, or
persona.” Matthew R. Grothouse, Collateral Damage:
Why the Transformative Use Test Confounds Publicity
Rights Law, 18 Va. J.L. & Tech. 474, 552 (Summer
2014). These interests are more than simple economic
advantage. “The things and people with which
individuals choose to associate reflect their character
and values.” Mark P. McKenna, The Right of
Publicity and Autonomous Self-Definition, 67 U. Pitt.
L. Rev. 225, 229 (Fall 2005). And “[a]ll individuals
have a legitimate interest in autonomous selfdefinition.” Id. at 231. Thus, the right of publicity
protects personal privacy interests, individual
dignity, and property rights in addition to pecuniary
interest.
Indeed, the Restatement (Second) of Torts, § 652
C, states that “[o]ne who appropriates to his own use
or benefit the name or likeness of the other is subject
to liability to the other for invasion of privacy.” Also,
the right to publicity, “like copyright . . . offers

10
protection to a form of intellectual property that
society deems to have social utility.” Hart, 717 F.3d
at 159. That makes sense. A right to exclude others
from use is endemic to a property right. Burns v. Pa.
Dept. of Correction, 544 F.3d 279, 287 (3d Cir. 2008)
(adopting “bundle of rights” theory of property to hold
a prisoner has a property interest in his inmate
account). And “one who owns or lawfully possesses or
controls property will in all likelihood have a
legitimate expectation of privacy by virtue of this
right to exclude.” Rakas v. Illinois, 439 U.S. 128, 144
n.12 (1978).
While the interests protected by the right of
publicity are clear, its scope is not. “[T]he right of
publicity is currently defined negatively.” Eric E.
Johnson, Disentangling the Right of Publicity, 111
Nw. U.L. Rev. 891, 894 (2017). “In saying what the
right of publicity is not, the courts largely rely on two
doctrinal vehicles: (1) freedom of expression
(including the application of the ‘newsworthiness
exception’) and (2) copyright preemption.” Id at 904.
The right of publicity is thus “utterly dependent upon
the First Amendment and other subtrahends to give
it its essential shape.” Id.
This Court addressed the First Amendment’s
impact on claims involving the right of publicity in
1977 and has not revisited the issue since. In Zacchini
v. Scripps Howard Broadcasting Co., the Court ruled
that the First Amendment did not prohibit a right of
publicity action based on a news program airing an
entire 15-second human cannonball act. 433 U.S. 562,
573 (1977). The Court focused on the fact that the
whole act had been broadcast, thereby limiting the
performer’s ability to make money attracting an
audience—they had seen it already. Id at 578. As

11
Justice Powell pointed out in his dissent, the Court’s
opinion offered no guidance in far more common
contexts. Justice Powell, and the two Justices who
joined him, would have held “that the First
Amendment protects the station from a ‘right of
publicity’ or ‘appropriation’ suit, absent a strong
showing by the plaintiff that the news broadcast was
a subterfuge or cover for private or commercial
exploitation.” Id. at 581 (Powell, J. dissenting).
Since then, the Court has said no more, and the
First Amendment doctrine has become a mess. “In the
right-of-publicity context, the First Amendment is
both incredibly weak and incredibly strong.” Johnson
at 911. Courts, focused only on economic incentive
reasoning, have applied the First Amendment to
dismiss valid claims where defendants have invaded
victims’ privacy and dignity. “[O]ne does not need to
read many cases to see that the right of publicity is
dogged by the First Amendment at every turn.” Id.
In 1989, the Second Circuit applied a loosely
defined test regarding the relationship between the
identity taken and the overall work, subsequently
dubbed the “relatedness” test. Rogers v. Grimaldi,
875 F.3d 994, 1004-05 (2d Cir. 1989). There, Ginger
Rogers claimed the title of a movie about two fictional
Italian cabaret performers—“Ginger and Fred”—
violated the Lanham Act and her right of publicity.
Id. at 996-97. The Second Circuit stated that the
Lanham Act must be construed narrowly to avoid
infringing First Amendment rights. Id. at 998. It
then ruled that “[i]n the context of allegedly
misleading titles using a celebrity’s name,” the
balance between customer confusion and free
expression “will normally not support application of
the Act unless the title has no artistic relevance to the

12
underlying work whatsoever, or, if it has some artistic
relevance, unless the title explicitly misleads.” Id. at
999. Regarding the right of publicity, the court
determined under Oregon law that Rogers had not
stated a claim, given Oregon’s expansive recognition
of free expression rights. Id. at 1004-05. The Sixth
Circuit later applied the relatedness test in Parks v.
LaFace Records, 329 F.3d 437, 458 (6th Cir. 2003)
(whether title “Rosa Parks” was “wholly unrelated” to
lyrics of a song was an issue of fact for jury resolution).
The Fifth Circuit has nodded toward the
relatedness test, but ultimately articulated an “actual
malice” test in Matthews v. Wozencraft, 15 F.3d 432
(5th Cir. 1994). There, the court addressed a fictional
book and movie that were based on biographical
details in the plaintiff’s life. Id. at 436. The Fifth
Circuit noted that discussing a person’s public
activities is not misappropriation of his likeness, id.
at 439, and it resolved that he could not recover for
the fictionalized aspects because the book made him a
public figure “and neither the book nor the movie
holds out [plaintiff] in a false light or in an
embarrassing way; thus, his claim is meritless,” id. at
440.
Then, the Supreme Court of California devised the
transformative use test. In Comedy III Prods., Inc. v.
Gary Saderup, Inc., the court resolved a case involving
t-shirts with images of The Three Stooges. 25 Cal.4th
387, 393 (2001). The shirts were not commercial
speech, but rather the defendant’s “portraits of The
Three Stooges [were] expressive works and not an
advertisement for or endorsement of a product.” Id.
at 396. And the court expressed a concern that “the
very importance of celebrities in society means that
the right of publicity has the potential of censoring

13
significant expression by suppressing alternative
versions of celebrity images that are iconoclastic,
irreverent, or otherwise attempt to redefine the
celebrity’s meaning.” Id. at 397.
The Supreme Court of California considered
adopting the fair use defense from copyright law but
determined—without much explanation—that some
fair use factors would not apply to depicting a person’s
likeness. Id. at 404. So the court limited its analysis
to the first factor—the purpose and character of the
use. Id. It then determined that “when a work
contains significant transformative elements, it is not
only especially worthy of First Amendment protection, but it is also less likely to interfere with the
economic interest protected by the right of publicity.”
Id. The court did not address other interests, such as
privacy and dignity, that are protected by controlling
the distribution of one’s own likeness—even after
acknowledging that the right of publicity arises from
the right to privacy. The court also did not address
the role the likeness plays in the artistic endeavor—
which, of course, indicates the expressive value of
using the likeness. Notably, the Supreme Court of
California stated that “a literal depiction of a
celebrity, even if accomplished with great skill, may
still be subject to a right of publicity challenge.” Id.
The Tenth Circuit applied a similar test in Cardtoons,
L.C. v. Major League Baseball Players Ass’n, 95 F.3d
959, 972-73 (10th Cir. 1996) (“Because celebrities are
an important part of our public vocabulary, a parody
of a celebrity does not merely lampoon the celebrity,
but exposes the weakness of the idea or value that the
celebrity symbolizes in society.”)
The Third Circuit first applied the transformative
use test in the video game context in Hart. It

14
considered the test superior because it “aims to
balance the interest protected by the right of publicity
against those interests preserved by the First
Amendment.” Hart, 717 F.3d at 163. Thus, when
applied to the video game representation of a college
football player where his image was not used, but his
physical attributes, number, height, weight, and
biographical details were similar, the video game had
not transformed his likeness enough to establish a
First Amendment interest. Id. at 166-68.
In 2003, the Supreme Court of Missouri recognized
that “[c]ourts throughout the country have struggled
with” the issue of when the First Amendment bars a
tort claim based on misappropriating someone’s
likeness, noting “the Zacchini Court limited its
holding to the particular facts of the case—the
appropriation of plaintiff’s ‘entire act’.” Doe v. TCI
Cablevision, 110 S.W.3d 363, 372 (Mo. 2003). The
court addressed whether the First Amendment barred
a right of publicity claim by a hockey player whose
name was used in a popular comic book. Id. at 370.
The parties agreed that the comic book character did
not physically resemble the plaintiff, nor did their
professions match, as the comic book character was a
murderous Mafia don. Id. But the shared name and
“the common persona of a tough-guy ‘enforcer’”
allegedly created “an unmistakable correlation”
between the plaintiff and the character. Id.
The Supreme Court of Missouri rejected prior
tests, focusing instead on the role the likeness played
in the expression itself to balance the interests. It
stated that “[r]ight of publicity cases, both before and
after Zacchini, focus instead on the threshold legal
question of whether the use of a person’s name and
identity is ‘expressive,’ in which case it is fully

15
protected, or ‘commercial,’ in which case it is generally
not protected.” Id. at 373. The court recognized that
both the relatedness test and the transformative use
test have a fundamental weakness: “they give too
little consideration to the fact that many uses of a
person’s name and identity have both expressive and
commercial components.” Id. at 374. They then
render any claim untenable where there is an
expressive component at all. Id. “Though these tests
purport to balance the prospective interests involved,
there is no balancing at all—once the use is
determined to be expressive, it is protected.” Id.
The court thus promulgated the “predominant use”
test. Id. If the defendant’s product exploits the plaintiff’s identity for commercial advantage, it is not
protected, but if “the predominant purpose of the
product is to make an expressive comment on or about
the celebrity, the expressive values could be given
greater weight.” Id. Because using the hockey player’s name had little literary value and was
“predominantly a ploy to sell comic books and related
products,” the First Amendment did not bar the claim.
When the Eighth Circuit confronted a right of
publicity claim, it decided not to articulate a test at
all, and instead, it balanced the First Amendment
interests against the interests in protecting the right
of publicity. C.B.C. Distrib. & Mktg. v. Major League
Baseball Advanced, L.P., 505 F.3d 818, 824 (8th Cir.
2007). There, a fantasy baseball company faced right
of publicity claims over its use of names and statistics.
Id. at 823. The Eighth Circuit recognized that it must
weigh the speech interests against both the economic
and non-economic interests of the subject baseball
players. Id. at 824. Noting the players’ interest in
protecting knowledge and use of their statistics was

16
minimal, the court ruled that the First Amendment
barred the claim.
Here, the Third Circuit has developed a new
version of the transformative use test that is even
more aggressive, and it is inconsistent with the California courts, thus creating another branch of analysis
for addressing the First Amendment protection for
using someone’s likeness without permission. Hamilton made numerous allegations regarding the
similarities in both physical appearance and voice
between himself and Cole. Both Hamilton and Cole
are African-American men with the same facial
features and skin tone; Cole’s voice sounds like
Hamilton’s; Cole’s way of speaking sounds like
Hamilton’s professional wrestling persona; Cole’s hair
looks like Hamilton’s; and Cole’s physique looks like
Hamilton’s. See JA06, 410. Hamilton also supported
these factual assertions with declarations and expert
testimony. See JA410-11, 422 (“I believe Cole’s
physical appearance looks very much like Hamilton’s
including face, race, skin tone, hair style, and
physique. I believe Cole’s voice sounds exactly like
Hamilton’s voice.”); JA428 (same); JA426 (expert
Report of Edward J. Primeau concluding, based on
biometric testing, that Cole’s voice is “extremely
similar” to Hamilton’s); JA 472-73 (expert Report of
Dr. Behnam Bavarian concluding, based on biometric
testing, that there is “strong similarity” between
Cole’s face and Hamilton’s face).
This is not a “transformative” use.
It is
incorporative and not entitled to First Amendment
protection. Yet the Third Circuit ruled as a matter of
law that Hamilton had no claim when defendants
dressed that uncanny likeness up in battle gear and
placed it in a war on an Earth-like fictional planet. It

17
thereby cheapened the importance of literal likeness,
which should be the primary consideration on
whether a right of publicity claim is barred by the
First Amendment’s Free Speech Clause. And as the
primary consideration, it should come with a much
more stringent standard to find that incorporation of
a literal likeness into an “artistic” work is
transformative.
Notably, neither the Third Circuit nor the
defendants have cited a single case in which the
transformative use test found First Amendment free
speech clause protection for using a literal likeness
when the “artistic” work was not a commentary on the
person whose likeness was used, let alone a video
game.
That likely is because the notion of
transformative use requires “the use of some elements
of a prior author’s composition to create a new one
that, at least in part, comments on that author’s
works.” Campbell v. Acuff-Rose Music, Inc., 510 U.S.
569, 580 (1994) (emphasis added). If the “artistic”
endeavor’s “commentary has no critical bearing on the
substance or style of the original composition, which
the alleged infringer merely uses to get attention or to
avoid the drudgery in working up something fresh,”
the assertion that it is fair to borrow others’ intangible
property
“diminishes
accordingly”
or
even
“vanish[es].” Id. The Third Circuit has created a new
branch to one of many tests, and there is no
consistency among jurisdictions.
“The situation goes far beyond a mere circuit split.
Courts across the country apply multiple different
approaches to constitutional analysis.” Robert C. Post
& Jennifer E. Rothman, The First Amendment and the
Right(s) of Publicity, 130 Yale L.J. 86, 127 (October,
2020).
While there are three major tests, the

18
discussion above establishes that courts all over the
country have applied myriad standards for
determining the First Amendment’s impact on right
of publicity claims. And “[t]he exact meaning and
method of applying the transformative [use] test
remains disputed. Courts that claim to apply this
analysis do so in different ways.” Id. at 129. Looking
at the issue through a purely economic lens, courts
applying the transformative use test have completely
missed the deep personal interests people have in
their own likenesses, that at least the Eighth Circuit
acknowledged in C.B.C.. 505 F.3d at 824; see also
McKenna at 285.
As the Third Circuit stated in Hart and reiterated
here, the transformative use test “restricts right of
publicity claims to a very narrow universe of
expressive works.” App. 4a n.4, quoting Hart, 717
F.3d at 163. Thus, it does nearly nothing to protect
individual privacy and property rights in one’s own
image. Moreover, it fails to recognize the lack of a
First Amendment free speech interest in specifically
infringing on someone else’s property, privacy, and
dignity rights. The right to burn a flag does not
include the right to steal someone else’s flag and burn
it—even if that would enhance the person’s speech by
expressing his disdain for the person who flew it.
The time has come for this Court to provide a test
for courts and legislatures to apply when determining
whether the First Amendment’s free speech clause
limits the ability to apply state or federal law to
protect a person’s identity interests. That test should
begin at recognizing that a person’s face and voice
may not be used without his or her permission, with
certain exceptions based on an implicit license people
provide by going out into public or engaging in public

19
acts, such as newsworthiness, de minimis use
(making an amusing meme), and use that obviously
does not misrepresent the individual (such as parody
and satire of the plaintiff’s public acts).
In the copyright context, Congress has adopted the
fair use test to balance the parties’ interests, and this
Court has acknowledged that balance does not violate
the First Amendment. Eldred v. Ashcroft, 537 U.S.
186, 221 (2003) (holding that further First Amendment protection of using copyrighted works is
unnecessary because the fair use doctrine and the
idea/expression dichotomy adequately protect free
speech). A modified version of that test that recognizes privacy and dignity interests—and not simply
hacking away important elements of it as the
Supreme Court of California did in fashioning the
transformative use test—would be most effective for
determining whether a free speech interest exists at
all and then balancing those interests. The Court
should grant the writ so that it can adopt a test that
establishes uniform law on how the First Amendment
applies to claims involving misappropriation of a
person’s likeness.
II. THIS CASE PRESENTS A QUESTION OF
EXCEPTIONAL IMPORTANCE.
The existing First Amendment menagerie has
myriad harmful effects. “[C]ourts are flailing about in
a sea of inconsistent, vague, and unhelpful First
Amendment tests,” Post & Rothman at 132, as the
need for a coherent test only grows. The transformative use test derived from a purely consumerist
approach—the Supreme Court of California concerned itself only with the lost economic opportunity.
Comedy III, 25 Cal.4th at 403 (“the right of publicity

20
is essentially an economic right”). It thus opened the
door for rulings like the Third Circuit’s here, where
the court ruled that a person’s moral objection to the
way in which his face is used is evidence that the use
is constitutionally protected. This ignores the privacy
and dignity interests underlying the right to publicity,
and it ignores common sense that a person should
have a right not to have his face and voice taken and
applied to a character that represents him as violent
and murderous.
Of course, a person implicitly licenses his image
and voice by participating in public acts—to a
degree—for purposes of news coverage or lampooning,
depending on the context. But unless this Court
provides a test by which lower courts can discern the
difference, the myriad inadequate tests applied by
various courts around the country will lead to
inconsistent rulings and further widespread theft of
likenesses. In jurisdictions using the transformative
use test, the lack of guidance from this Court will lead
to an extreme lack of protection for peoples’ privacy
and dignity under the guise of a free speech right.
People do not have a First Amendment free speech
right to others’ likenesses any more than they have a
free speech right to their songs, their paintings, or any
other publicly available expression of themselves.
There is no basis for the notion that a person’s
likeness—his or her face and voice—are any less
protected than any other thing personal to him or her,
such as her art or other intellectual property. Indeed,
the personal interest in one’s likeness is arguably
greater than the interest in a song or a work of art. A
person’s face and voice are intimately intertwined
with identity, and control over others’ use of one’s face
and voice is important to an individual’s psyche.

21
People constantly strive to protect their
reputations and how other people see them.
Celebrities provide myriad examples, such as actors
and actresses who refuse to perform nude or even kiss
another person on screen. McKenna at 282. Similarly, the vast majority of people, who are not
celebrities, have economic, privacy, and dignity rights
against, for instance, an ex-boyfriend digitally placing
her face into a pornographic video. McKenna at 280.
Thus, the property right in one’s face and voice is more
than just an economic right.
These deep-seated interests are in greater danger
than ever before. We are moving to a world in which
it is technologically possible to take someone’s likeness and do anything we want with it if unconstrained
by law. People have begun using drones to obtain
paparazzi photos of celebrities. Amanda Tate, Note:
Miley Cyrus and the Attack of the Drones, 17 Tex. Rev.
Ent. & Sports L. 73, 79-80 (Fall, 2015) (“Aggressive
paparazzi outlets, which can receive up to $100,000
for celebrity photographs, especially if the photographs are of celebrities at their mots vulnerable or
‘unguarded’ moments, are the prime suspects for
misuse of drone technology.”). And while a state can
protect against drone use over private property, a free
expression right that inherently trumps privacy and
publicity rights leaves no way to prevent a drone over
a city street from peering into people’s private lives.
Numerous celebrities have expressed value in their
rights to privacy and to not speak on the issues of the
day. See, e.g., Naled Ushe, Celebrities Who Don’t Talk
Politics: ‘Nobody Cares’, Fox News, Nov. 1, 2020.1 Yet,
1

Available
at:
https://www.foxnews.com/entertainment/
celebrities-who-dont-talk-politics.

22
according to the Third Circuit, their faces and voices
can be used to express beliefs they do not believe in.
Indeed, a regular person with no celebrity can
become a recognizable figure overnight. For instance,
a fan at a sporting event can, with the right amount
of expressed despair, become the subject of internet
memes and t-shirt sales.
See Caitlyn Slater,
Comment: The “Sad Michigan Fan”: What Accidentally Becoming an Internet Celebrity Means in Terms of
Right of Publicity and Copyright, 2017 Mich. St. L.
Rev. 865, 868 (2017). The free speech doctrine does
not prevent the television network that filmed the act
from demanding its share of t-shirt sales as a violation
of copyright law, but putting aside ESPN’s potentially
superior claim after the fan may have licensed his
likeness to ESPN by attending, id. at 870-71, there is
a critical question on whether the free expression
clause prohibits states or the federal government from
protecting that fan’s rights.
Companies are willing to turn ordinary people into
endorsers with impunity, including putting them into
erectile disfunction commercials without permission,
just by filming elderly people at the park. McKenna
at 280. Soon, they will not need to rely on footage
taken in public parks, and they will be able to create
deepfake ads with the faces of friends and family.
Maya Shwayder, Why Deepfakes Will Soon Be as
Commonplace as Photoshop, Digitaltrends, Dec. 13,
2019. 2 According to the Third Circuit’s standard, the
infringer is more protected if the person whose
identity is stolen does not use the product, and the
2

Available
at
https://www.digitaltrends.com/news/whydeepfakes-will-soon-be-as-commonplace-as-photoshop/.

23
company is even more protected if the victim objects
to the product. And the technological advances allowing for misuses are exploding. Id. Those advances are
used for cyber-bullying, virtual sex acts, and
pornography, 3
These misuses present a far greater concern than
using someone’s occupation or an athlete’s statistics.
Our faces and voices are intimately tied to how we
interact with everyone around us. Thus, to the extent
that there is a concern that a right of publicity gives
individuals the ability to censor creative works they
do not like, opponents of the right of publicity do not
explain why individuals should have a right to take
another’s property and use it in a way that person
does not like in derogation of their privacy and
dignity. See, e.g., Patrick Cronin, Historical Origins
of the Conflict Between Copyright and the First
Amendment, 35 Colum. J.L. & Arts 221, 247 (Winter
2012). And to the extent one fears that intellectual
property and privacy rights under the right of
publicity will prohibit expression everywhere, those
rights do not prohibit expression except as to theft.
People are free to express their ideas without theft of
others’ faces and voices. They are not free to denigrate
3 See, e.g., Tim Simonite, Forget Politics. For Now, Deepfakes are

for Bullies, Wired, Sept. 4, 2019 https://www.wired.
com/story/forget-politics-deepfakes-bullies/.
Samantha Cole,
‘They Can’t Stop Us:’ People are Having Sex with 3D Avatars of
Their Exes and Celebrities, Vice, Nov. 19, 2019,
www.vice.com/amp/en_us/article/j5yzpk/they-cant-stop-uspeople-are-having-sex-with-3d-avatars-of-their-exes-andcelebrities; Joseph Bernstein, How HBO Unwittingly Helped
Create Insanely Hardcore “Game of Thrones” Porn, Buzzfeed
News,
Feb.
11,
2015,
https://www.buzzfeednews.com/
article/josephbernstein/how-hbo-unwittingly-helped-createinsanely-hardcore-game-of.

24
people’s individually cultivated identities without
permission.
The First Amendment was not intended to be a
weapon for such spurious use of peoples’ likenesses,
and this Court should correct the path of this
disjointed and misguided doctrine.
The Third
Circuit’s ruling and other tests establishing an
overbroad free speech trump over the right of
publicity threaten the sanctity and dignity of
everyone’s identity, regardless of celebrity. And the
victims of this type of misappropriation need this
Court to right the path so that states can develop their
right of publicity laws in an environment that
recognizes the proper scope of First Amendment
protections.
CONCLUSION
For the foregoing reasons, the petition should be
granted, the judgment below should be reversed, and
the case should be remanded for further proceedings.
Respectfully submitted,
TILLMAN J. BRECKENRIDGE
Counsel of Record
BRECKENRIDGE PLLC
1325 G Street NW
Suite 500
Washington, DC 20005
Telephone: 202-567-7733
tjb@breckenridgepllc.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
____________________
No. 19-3495
____________________
LENWOOD HAMILTON,
a/k/a HARD ROCK or SKIP HAMILTON,
Appellant
v.
LESTER SPEIGHT,
a/k/a RASTA THE URBAN WARRIOR,
a/k/a AUGUSTUS “COLE TRAIN” COLE;
EPIC GAMES, INC.;
MICROSOFT, INC., a/k/a Microsoft Corp;
MICROSOFT STUDIOS; THE COALITION
____________________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil No. 2-17-cv-00169)
District Judge: Hon. Anita B. Brody
____________________
Submitted under Third Circuit L.A.R. 34.1(a)
September 10, 2020

2a
Before: CHAGARES, HARDIMAN, and MATEY,
Circuit Judges.
(Opinion filed: September 17, 2020)
____________________
OPINION *
____________________

MATEY, Circuit Judge.
Lenwood Hamilton argues that defendants
unlawfully used his likeness in a video game. The
District Court held that the First Amendment barred
Hamilton’s claims. We agree and so will affirm.
I.

BACKGROUND

Hamilton is a former professional athlete,
entertainer, and motivational speaker. Following a
brief football career, he created Soul City Wrestling, a
“family-friendly” organization where he performed as
“Hard Rock Hamilton.” (App. at 417.) Hamilton hoped
to spread a “message to kids about drug awareness,
and the importance of getting an education.” (App. at
417–18.) His work attracted positive attention from
Philadelphia media and elected officials.
Gears of War is a video game series in which
members of the Delta Squad—including Augustus
“Cole Train” Cole—battle “a race of exotic reptilian
humanoids” known as the Locust Horde on the planet
Sera. (Opening Br. at 5.) A few years ago, Hamilton
saw the game for the first time. “Looking at the
* This disposition is not an opinion of the full Court and,

pursuant to I.O.P. 5.7, does not constitute binding precedent.

3a
Augustus Cole character,” he felt, “[wa]s like looking
in a mirror.” (App. at 418.) So he sued.
Hamilton’s complaint alleged that defendants 1
used his likeness in violation of his right of publicity. 2
Defendants argued that their work enjoyed the
protections of the First Amendment. The District
Court agreed and granted their motion for summary
judgment. This appeal followed.3
II. DISCUSSION
The right of publicity protects individuals “from
the misappropriation of their identities.” Hart v. Elec.
Arts, Inc., 717 F.3d 141, 150 (3d Cir. 2013); see, e.g.,
42 Pa. C.S. § 8316(a). But the First Amendment
protects the freedom of speech, including the content
of video games. Hart, 717 F.3d at 148–49. To “strike a
balance between [these] competing interests” in rightof-publicity cases, id. at 149, we ask “whether the
[plaintiff’s] likeness is one of the ‘raw materials’ from
which [the defendant’s] work is synthesized, or
1 Defendants are: Epic Games, Inc., the game’s creator;

Microsoft, Inc., Microsoft Studios, and The Coalition, the game’s
publishers and distributors; and Lester Speight, the voice actor
for Augustus Cole.

2 Hamilton brought Pennsylvania-law claims for unauthorized

use of name or likeness under 42 Pa. Cons. Stat. § 8316; unjust
enrichment; misappropriation of publicity; and invasion of
privacy by misappropriation of identity. He also brought, then
withdrew, a Lanham Act claim.
3 The District Court had jurisdiction under 28 U.S.C. § 1332; we

have jurisdiction under 28 U.S.C. § 1291. We exercise plenary
review over a district court’s grant of summary judgment,
viewing the evidence in the light most favorable to, and drawing
all reasonable inferences in favor of, Hamilton. Hart v. Elec. Arts,
Inc., 717 F.3d 141, 147 (3d Cir. 2013).

4a
whether the depiction or imitation of the [plaintiff] is
the very sum and substance of the work in question.”
Id. at 160 (quoting Comedy III Prods., Inc. v. Gary
Saderup, Inc., 21 P.3d 797, 809 (Ca. 2001)). “[I]n other
words,” this “transformative use test” asks “whether
the product containing [the plaintiff’s] likeness is so
transformed that it has become primarily the
defendant’s own expression[.]” Id. (quoting Comedy
III, 21 P.3d at 809). If it has, the defendant’s First
Amendment rights prevail.
Here, no reasonable jury4 could conclude that
Hamilton—whether Lenwood or Hard Rock—is the
“sum and substance” of the Augustus Cole character.
There are no doubt similarities. Hamilton and Cole
have similar skin colors, facial features, hairstyles,
builds, and voices. Hamilton played football for the
Philadelphia Eagles; Cole once played “thrashball”—
a “fictionalized sport that loosely imitates American
football” (Opening Br. at 5)—for a team with that
same name. And Gears of War players can dress Cole
in a “Superstar Cole” outfit that resembles Hard Rock
Hamilton’s signature costume.
But other significant differences reveal that
Hamilton was, at most, one of the “raw materials from
which [Augustus Cole] was synthesized.” Hart, 717
F.3d at 160. In Gears of War, Cole fights a fantastic
breed of creatures in a fictional world. Hamilton, of
course, does not. Cf. Kirby v. Sega of Am., Inc., 50 Cal.
4 Transformative use is an affirmative defense, so the defendants

must show that “no trier of fact could reasonably conclude that
the [game] was not transformative.” Hilton v. Hallmark Cards,
599 F.3d 894, 910 (9th Cir. 2010). Though seemingly a high
burden, the defense “restricts right of publicity claims to a very
narrow universe of expressive works.” Hart, 717 F.3d at 163.

5a
Rptr. 3d 607, 616 (Cal. Ct. App. 2006) (transformative
use where musician depicted in video game “as a
space-age reporter in the 25th century”). Nor has
Hamilton served in the military. Cf. Hart, 717 F.3d at
166 (no transformative use where game depicted
“digital [football player] do[ing] what the actual
[football player] did while at Rutgers: . . . play[ing]
college football, in digital recreations of college
football stadiums, filled with all the trappings of a
college football game”); No Doubt v. Activision Publ’g,
Inc., 122 Cal. Rptr. 3d 397, 411 (Cal. Ct. App. 2011)
(no transformative use where game featured “exact
depictions of [band’s] members doing exactly what
they do as celebrities”—i.e., singing and playing
music). And Hamilton himself admits that the Cole
character’s persona is alien to him. (App. at 581 (“This
guy . . . is ignorant, he’s boisterous and he shoots
people, he cusses people out, that’s not me. . . . [a]nd
it’s totally against what I believe in. . . . He stands for
totally the opposite of what I was trying to do[.]”).) Cf.
Winter v. DC Comics, 69 P.3d 473, 476, 479 (Cal. 2003)
(alleged depiction of musicians Johnny and Edgar
Winter as “Johnny and Edgar Autumn” in comic book
protected by the First Amendment; though the
Autumns shared physical attributes and style of dress
with the Winters, the Autumns were “depicted as
villainous half-worm, half-human offspring born from
the rape of their mother by a supernatural worm
creature that had escaped from a hole in the
ground”—i.e., were “but cartoon characters . . . in a
larger story, which is itself quite expressive”). 5
5 Hamilton argues that the transformative-use test does not

apply to commercial speech and that the First Amendment,
therefore, does not protect defendants’ use of the Cole character
in Gears of War “advertising and marketing materials.” (Opening

6a
III. CONCLUSION
If Hamilton was the inspiration for Cole, the
likeness has been “so transformed that it has become
primarily the defendant’s own expression.” The First
Amendment therefore bars Hamilton’s claims, and we
will affirm the District Court’s grant of summary
judgment.

Br. at 39.) But the only mention of this argument in the District
Court was in Hamilton’s sur-reply brief, where a single, passing
assertion that defendants’ promotional materials “do[] not
receive the same level of First Amendment protection that the
games themselves may enjoy” was supported by a single,
unexplained citation. That cannot preserve the issue, and we
consider the argument forfeited. See Kost v. Kozakiewicz, 1 F.3d
176, 182 (3d Cir. 1993) (“[C]asual mention of an issue in a brief
is cursory treatment insufficient to preserve the issue on
appeal.”); id. at 182 n.3 (“[W]here an issue is raised for the first
time in a reply brief, we deem it insufficiently preserved for
review before this court.”).
Relying on copyright law principles, Hamilton also argues that
the transformative-use test does not apply when the work at
issue “[is] not a commentary on the person whose likeness [is]
used[.]” (Opening Br. at 25.) He is incorrect. See Winter, 69 P.3d
at 479 (“Comedy III did not adopt copyright law wholesale. . . .
What matters is whether the work is transformative, not
whether it is parody or satire or caricature or serious social
commentary or any other specific form of expression.” (emphasis
added)).

7a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
LENWOOD HAMILTON,
Plaintiff,
v.

CIVIL ACTION
No. 2:17-cv-00169-AB

LESTER SPEIGHT, et al.,
Defendants.

September 26, 2019

Anita B. Brody, J.

MEMORANDUM
Plaintiff Lenwood Hamilton (“Hamilton”) is a
former professional wrestler and football player. In
the 1990s, Hamilton created and performed as the
character Hard Rock Hamilton with Soul City
Wrestling, a now-defunct, family-friendly professional
wrestling organization that Hamilton created.
Hamilton alleges that Defendants Microsoft, Inc.,
Microsoft Studios, The Coalition, Epic Games, Inc.,
and Lester Speight (collectively, “Defendants”)
misappropriated the Hard Rock Hamilton character
when they created Augustus Cole (“the Cole
character”), also referred to in-game as Cole Train, for
the popular Gears of War video game series. 1 In the
1 Specifically, Hamilton alleges several causes of action relating

to Defendants’ violation of Hamilton’s right of publicity: (1) a
statutory claim for unauthorized use of name or likeness under
42 Pa. C.S.A. § 8316; (2) a common law claim for
misappropriation of publicity; (3) a common law claim for

8a
Gears of War series, the Cole character is not a
wrestler but a fictional soldier who engages in highly
stylized
cartoon
violence
against
formerly
subterranean reptilian humanoids on a fictional
Earth-like planet, Sera.
Defendants move for summary judgment on the
grounds that the First Amendment right to free
expression bars each of Hamilton’s claims. 2 Even
taking the facts in the light most favorable to
Hamilton for the purposes of summary judgment, the
First
Amendment
bars
Hamilton’s
claims.
Defendants’ right to free expression outweighs
Hamilton’s right of publicity in this case because the
Cole character is a transformative use of the Hard
Rock Hamilton character. For this reason, I will grant
Defendants’ motion for summary judgment.3

invasion of privacy by misappropriation of identity; and (4) a
cause of action for unjust enrichment stemming from
Defendants’ use of his likeness. See Second Am. Compl. ¶¶ 8693; 97-99; 100-102; 103-105.
2 Defendants also argue, among other things, that Hamilton fails

to carry his burden on summary judgment. Because I will grant
Defendants’ motion on First Amendment grounds, I do not reach
Defendants’ other arguments. This is because even where a
defendant actually “infringes on the right of publicity,” courts
may look to “whether the right to freedom of expression
overpowers the right to publicity” regardless of “the elements of
the tort or whether [the defendant’s] actions satisfy this
standard.” Hart v. Elec. Arts, Inc., 717 F.3d 141, 150 n.12 (3d Cir.
2013).
3 I exercise diversity jurisdiction in this case pursuant to 28

U.S.C. § 1332.

9a
I. BACKGROUND 4
A. Lenwood
Hamilton,
Wrestling, and the
Hamilton Persona

Soul
Hard

City
Rock

In the 1990s, Plaintiff Lenwood Hamilton
(“Plaintiff” or “Hamilton”) worked as a professional
wrestler. As a wrestler, Hamilton was known as Hard
Rock Hamilton. Hamilton’s Hard Rock Hamilton
persona donned a unique look with a distinctive
approach to costume, dress, and appearance. 5
Hamilton performed as Hard Rock Hamilton in
Hamilton’s own local professional wrestling
organization, called Soul City Wrestling. Soul City
Wrestling was designed to be family-friendly
professional wrestling entertainment. Beginning in
1997, Soul City Wrestling promoted and held
professional wrestling bouts at numerous venues in
and around Philadelphia and elsewhere. Hard Rock
Hamilton was often featured as the main event at
Soul City Wrestling and was the Soul City
Heavyweight Champion of the World. Hamilton
promoted Soul City Wrestling in local broadcast and
newspaper media, including local television news, the
Philadelphia Inquirer, Philadelphia Sunday Sun,
Philadelphia Daily News, and Norristown Times
Herald. While developing Soul City Wrestling,
Hamilton also worked as a motivational speaker in
Philadelphia.

4 I take all facts in the light most favorable to the non-moving

party, Hamilton.

5 An image of Hamilton as Hard Rock Hamilton is appended to

this memorandum as Appendix A.

10a
Before his work as a professional wrestler,
Hamilton played football at NCAA Division I football
programs and went on to become a professional
football player. Hamilton played one game for the
Philadelphia Eagles during the strike-affected 1987
NFL football season.
In 1998, Defendant Lester Speight (“Speight”)
joined Soul City Wrestling, where he donned the
wrestling persona Rasta the Voodoo Mon. Speight
knew of Hamilton and his Hard Rock Hamilton
persona. On July 25, 1998, Soul City Wrestling
sponsored a wrestling event at Viking Hall in
Philadelphia, which featured Hamilton as Hard Rock
Hamilton and Speight in his “Rasta” persona. During
the after-party for that event, Speight discussed plans
for a violent shoot ’em up video game with Hamilton. 6
In accordance with Hamilton’s family-friendly
philosophy, Hamilton informed Speight that he was
not interested in taking part in a violent video game.
B. The Gears of War Video Game Series
and the Cole Character
Gears of War is an extremely violent cartoon-style
fantasy video game series. The series takes place on
an Earth-like planet called Sera that is populated by
a wide variety of post-apocalyptic, crumbling
structures. In the game, highly stylized, outlandish,
cartoonish human characters are in violent conflict on
Sera with a race of exotic reptilian humanoids known
as the Locust Horde. 7 The Locust Horde reptilian
6 Hamilton alleges that the shoot ’em up video game Speight

mentioned in 1998 would eventually become the video game
series Gears of War.
7 This characterization of the video game series is supported in

part by my in-chambers review of the games themselves, which

11a
humanoids are rumored in the in-game narrative to
have been born out of a research accident related to
Imulsion, a fictional energy source. However, the
Locust Horde no longer inhabits its former
subterranean environment after being driven aboveground by other subterranean reptilian creatures. The
series primarily follows a military unit called Delta
Squad, which consists of the fictional characters
Marcus Fenix, Dominic Santiago, Damon Baird, and
the Cole character. The reptilian humanoid members
of the Locust Horde engage in extremely violent
conflict with the Delta Squad and the rest of the
planet’s surface-dwellers; their conflicts center on
fantastical, cartoonish firearms controlled by the
players.
Throughout the Gears of War series, Defendant
Lester Speight, Hamilton’s former wrestling mate,
provided the voice for the Cole character. 8 In the
game, the Cole character is a large, muscular, African
American male who is a former professional athlete
who played the fictional game thrashball, a highly
fantastical and fictionalized sport that loosely
imitates American football in some ways, although
the characters do not play thrashball. Speight had
input into how the Cole character looked and had
influence over the character. For example, Speight
decided which voice to use for Augustus Cole. He also
were put into the record along with a game console and controller
by Defendants. See Declaration of Ambika Doran in Support of
Motion to Dismiss, (ECF No. 25-3) (attaching Gears of War
games).
8 Although the in-game appearance for the characters are three-

dimensional computer-generated images (“CGI”), their voices are
provided by actors.

12a
suggested that the game designers make the Cole
character’s arms bigger.
Cole and Hamilton share broadly similar faces,
hair styles, races, skin tones, and large, muscular
body builds. Cole’s and Hamilton’s voices also sound
similar. The default Cole character in Gears of War is
adorned in military gear.9 The Cole character does not
change in appearance from Gears of War 1 and Gears
of War 2.
However, in Gears of War 3, the third game in the
series, players can obtain alternative “skins,” or
appearances, for the characters, including the Cole
character. In Gears of War 3, for instance, players can
utilize a skin or outfit for Cole known as Superstar
Cole. This skin is a nonmilitary or civilian look for
Cole. 10 Superstar Cole wears a fedora, sunglasses,
sweatbands or compression bandages, a watch, and a
chain necklace with a replica of a Gears of War
weapon hanging from it. There is also a skin for
Thrashball Cole, which emphasizes Cole’s background
as a former thrashball player.11 There is similarly no
reference in the games to the Hard Rock Hamilton
name or any other biographical information about
Hard Rock Hamilton.

9 Defendants’ uncontested submission of an “exemplary” Cole

character is included as Appendix B.

10 A comparison of Cole dressed as Superstar Cole and Hard
Rock Hamilton is displayed in Appendix D of this memorandum.
11 A comparison of Cole dressed as Thrashball Cole and Hard

Rock Hamilton is displayed in Appendix C of this memorandum.

13a
II. LEGAL STANDARD
Summary judgment shall be granted “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). A
fact is “material” if it “might affect the outcome of the
suit under the governing law . . . .” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). A factual
dispute is “genuine” if the evidence would permit a
reasonable jury to return a verdict for the nonmoving
party. Id. In ruling on a motion for summary
judgment, the court must draw all inferences from the
facts in the light most favorable to the nonmoving
party. Matsushita Elec. Indus. Co., Ltd. v. Zenith
Radio Corp., 475 U.S. 574, 587 (1986).
The moving party “always bears the initial
responsibility of informing the district court of the
basis for its motion . . . .” Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986). After the moving party has met
its initial burden, the nonmoving party must then
“make a showing sufficient to establish the existence
of [every] element essential to that party’s case, and
on which that party will bear the burden of proof at
trial.” Id. at 322. Both parties must support their
factual positions by: “(A) citing to particular parts of
materials in the record . . . ; or (B) showing that the
materials cited do not establish the absence or
presence of a genuine dispute, or that an adverse
party cannot produce admissible evidence to support
the fact.” Fed. R. Civ. P. 56(c)(1).
The inquiry at summary judgment is “whether the
evidence presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that

14a
one party must prevail as a matter of law.” Anderson,
477 U.S. at 251-52.
III. DISCUSSION
Defendants move for summary judgment on
Hamilton’s claims. Defendants argue, among other
things, that each of Hamilton’s claims is barred by the
First Amendment. Specifically, Defendants contend
that their rights to expressive speech under the First
Amendment outweigh Hamilton’s right to publicity, if
any, because the Cole character is a “transformative
use” of the Hard Rock Hamilton character. See
generally Hart v. Elec. Arts, Inc., 717 F.3d 141, 166 (3d
Cir. 2013) (adopting and applying the Transformative
Use Test in relation to First Amendment protection
against right of publicity cases). I agree and I will
grant Defendants’ motion on this ground.
A. The Right of Publicity, the First
Amendment, and the Transformative
Use Test
Hamilton alleges several causes of action
stemming from his allegation that Defendants’
creation of the Cole character in the Gears of War
video game series infringes on his right of publicity:
(1) a statutory claim for unauthorized use of name or
likeness under 42 Pa. C.S.A. § 8316; (2) a common law
claim for misappropriation of publicity; (3) a common
law claim for invasion of privacy by misappropriation
of identity; and (4) a cause of action for unjust
enrichment stemming from Defendants’ use of his
likeness. See Second Am. Compl. ¶¶ 86-93; 97-99; 100102; 103-105.12 Generally, the right of publicity
12 Hamilton agrees that each of his Pennsylvania statutory and
common law claims stems from Defendants’ invasion of his “right
of publicity.” See, e.g., Pl.’s Br. in Opp. to Defs.’ Mot. for Summ.

15a
recognizes that individuals like Hamilton may have
valuable interests in their name, likeness, and
identity. See Hart, 717 F.3d at 148-49. Lawsuits like
this one seek to protect an individual where others
have “misappropriate[ed] his [or her] identity for
commercial exploitation.” Id.
In cases where a plaintiff asserts a right to
publicity, the First Amendment may serve as a
defense. See generally, e.g., Hart, 717 F.3d 141.
Accordingly, in this case, Defendants argue that the
First Amendment bars Hamilton’s right of publicity
claims. Specifically, Defendants contend that their
creation of the Gears of War video game series is
expressive speech and that their right to free
expression outweighs Hamilton’s right to publicity.
Video games like Gears of War are expressive speech
protected by the First Amendment because “[l]ike the
protected books, plays, and movies that preceded
them, video games communicate ideas—and even
social messages—through many familiar literary
devices (such as characters, dialogue, plot, and music)
and through features distinctive to the medium (such
as the player’s interaction with the virtual world).”
Brown v. Entm’t Merchs. Ass’n, 564 U.S. 786, 790
(2011). As such, it is “self-evident” that “video games
are protected as expressive speech under the First
Amendment.” Hart, 717 F.3d at 148 (citing Brown,
786 U.S. at 790).
When parties assert competing rights to publicity
and free expression in situations like this, a court
must “balance the interests underlying the right of
free expression against the interest in protecting the
J. at 25-29.

16a
right of publicity.” Id. at 149 (citing Zacchini v.
Scripps-Howard Broad. Co., 433 U.S. 562, 574-75
(1977)). In order to conduct this balancing test, the
Third Circuit utilizes the Transformative Use Test.
Id. at 163. The Transformative Use Test was first
devised and developed by the California Supreme
Court in Comedy III Productions, Inc. v. Gary
Saderup, Inc., 21 P.3d 797, 807-11 (Cal. 2001), and
subsequent caselaw. Under the Transformative Use
Test:
the balance between the right of publicity and
First Amendment interests turns on whether
the celebrity likeness is one of the “raw
materials” from which an original work is
synthesized, or whether the depiction or
imitation of the celebrity is the very sum and
substance of the work in question. [Courts]
ask, in other words, whether the product
containing a celebrity’s likeness is so
transformed that it has become primarily the
defendant’s own expression rather than the
celebrity’s likeness. And when we use the
word “expression,” [courts] mean expression of
something other than the likeness of the
celebrity.
Hart, 717 F.3d 141, 159-60 (3d Cir. 2013) (quoting
Comedy III Productions, 21 P.3d at 809).
In Hart, the Court applied the test to the video
game NCAA Football. Id. at 165. Plaintiff Ryan Hart,
a former college football star quarterback, sued
Electronic Arts, Inc., the maker of the NCAA Football
series for violating his right of publicity by featuring
a Hart-like avatar in the game without compensating
him. Id. at 144. In NCAA Football, video game players

17a
selected realistic depictions of college football teams
and players, including Hart, to control the players’
avatars in simulated college football games in
simulated college football arenas. Id. at 146. As
described by the Court in Hart:
In no small part, the NCAA Football
franchise’s success owes to its focus on realism
and detail—from realistic sounds, to game
mechanics, to team mascots. This focus on
realism also ensures that the “over 100 virtual
teams” in the game are populated by digital
avatars that resemble their real-life
counterparts and share their vital and
biographical information. Thus, for example,
in NCAA Football 2006, Rutgers’ quarterback,
player number 13, is 6’2” tall, weighs 197
pounds and resembles Hart. Moreover, while
users can change the digital avatar’s
appearance and most of the vital statistics
(height, weight, throwing distance, etc.),
certain details remain immutable: the player’s
home state, home town, team, and class year.
Id. After adopting the Transformative Use Test, the
court in Hart applied the test to NCAA Football and
found that the video game failed the test and that
Hart could continue with his right of publicity claims
against the defendant. Id. at 167. The Court found
that the in-game Hart avatar’s likeness and
biographical information failed to transform the
character from the actual Hart, and that no aspect of
the in-game context in which the Hart avatar appears
sufficed to satisfy the Transformative Use Test. Id. at
165-171.

18a
The Hart case also discussed with approval two
California cases applying the Transformative Use
Test: No Doubt and Kirby. In Kirby v. Sega of America,
Inc., 50 Cal. Rptr. 3d 607 (Cal. Ct. App. 2006), the
plaintiff musician, Kierin Kirby, claimed that Sega
misappropriated Kirby’s likeness and signature
phrases to create Ulala, a video game character who
was a reporter in the distant future. The court noted
that Kirby used several identical signature phrases,
including “ooh la la,” “groove,” “meow,” “dee-lish,” and
“I won’t give up.” Id. at 613. Like the descriptions of
Hamilton and Cole in this case, the court in Kirby also
found similarities in appearance between the two
characters based on hair style and clothing choice. Id.
The Kirby court held that, because there were some
differences in appearance and movement between the
two characters, Ulala was not merely a digital
recreation of Kirby. Id. Thus, the court concluded that
Ulala satisfied the Transformative Use standard. See
also id. at 617 (“[A]ny imitation of Kirby’s likeness or
identity in Ulala is not the sum and substance of that
character.”).
The Kirby Court “reject[ed] the claim that Ulala
merely emulates Kirby.” Id. at 616. Even though, as
here, “sufficient similarities preclude a conclusion
that, as a matter of law, Ulala was not based in part
on Kirby,” the Court was “similarly unable to
conclude, as a matter of law, that Ulala is nothing
other than an imitative character contrived of ‘minor
digital enhancements and manipulations.’” See id.
The Court found that because the Sega defendants
“added new expression, and the differences are not
trivial” and because “Ulala is not a mere imitation of
Kirby,” the defendants were entitled to summary
judgment on First Amendment grounds. Id.

19a
The Hart Court also discussed the California Court
of Appeal’s decision considering the right of publicity
in the video game context in No Doubt v. Activision
Publishing, Inc., 122 Cal. Rptr. 3d 397 (Cal. Ct. App.
2011). In No Doubt, the rock band known as No Doubt
sued the makers of Band Hero, a video game in which
video game players perform as rock bands playing
popular songs. Id. at 401. The video game player
selects digital avatars to represent him or her as the
band in the game, which included avatars specifically
intended to depict the likeness of the band being used,
including an avatar of the band No Doubt. Id. After
the band had a contract dispute with the video game
makers, No Doubt sued for violation of their rights to
publicity in relation to the game’s continued use of
their name, likeness, and biographical information.
Id. at 402.
The California Court of Appeal applied the
Transformative Use Test to find that defendant’s
creation of the No Doubt avatars failed the test. The
Court noted that the No Doubt avatars were “at all
times immutable images of the real celebrity
musicians.” Id. at 410. The Court also noted that “even
literal reproductions of celebrities can be
‘transformed’ into expressive works based on the
context into which the celebrity image is placed.” Id.
(citing Comedy III, 21 P.3d at 811). The court
ultimately found that “no matter what else occurs in
the game during the depiction of the No Doubt
avatars, the avatars perform rock songs, the same
activity by which the band achieved and maintains its
fame.” Id. at 410-11. The court explained:
[T]he avatars perform [rock] songs as literal
recreations of the band members. That the
avatars can be manipulated to perform at

20a
fanciful venues including outer space or to
sing songs the real band would object to
singing, or that the avatars appear in the
context of a videogame that contains many
other creative elements, does not transform
the avatars into anything other than the exact
depictions of No Doubt’s members doing
exactly what they do as celebrities.
Id. at 411. Finally, the No Doubt Court noted that the
defendant video game maker’s use of realistic digital
depictions of the rock band No Doubt was motivated
by a desire to appeal and sell to the band’s fans
“because it encourages [fans] to purchase the game so
as to perform as, or alongside, the members of No
Doubt.” Id.
In balancing the interests involved in the
Transformative Use Test, the Hart Court specifically
focused on whether plaintiff’s “identity” had been
transformed. “Identity” includes “not only [a
plaintiff’s] likeness, but also his [or her] biographical
information.” Hart, 717 F.3d at 165. “It is the
combination of these two parts—which, when
combined, identify the digital avatar as an in-game
recreation of [a plaintiff]—that must be sufficiently
transformed.” Id. In cases relating to video games, a
character’s identity also includes or can be
transformed by the “context” in which the video game
character appears and operates, including where the
character is depicted to be in the game and what the
character does and can do in the game. Id.
B. Application
The Cole character satisfies the Transformative
Use standard. If the Hard Rock Hamilton character
influenced the creation of the Cole character at all, the

21a
Hard Rock Hamilton character was at most one of the
“raw materials” from which the Cole character was
synthesized: the Hard Rock Hamilton is not the “very
sum and substance of the” Cole character. Hart, 717
F.3d 141, 160 (3d Cir. 2013) (quoting Comedy III
Productions, 21 P.3d at 809).
First, as discussed in further detail below,
although the Hard Rock Hamilton and the Cole
characters’ likenesses certainly share some
similarities, the Hard Rock Hamilton character’s
identity is obviously not the “very sum and substance”
of the Cole character’s identity. Id. Second, the context
in which the Cole character appears and performs is
profoundly transformative. Cole—who engages in
extraordinarily stylized and fantastical violence
against cartoonish reptilian humanoids on a fictional
planet in a fictional war—does not “do[] what the
actual” Hard Rock Hamilton character does—engage
in professional wrestling on Earth. Hart, 717 F.3d at
166. Because of these transformative characteristics
of the Cole character, Defendants meet the
Transformative Use standard.
1. The Cole character’s likeness and
biographical information
The Cole character’s identity transforms the Hard
Rock Hamilton character’s identity with respect to the
characters’ likenesses, biographical information, and
personalities. First, the Cole character’s biographical
information substantially transforms the Hard Rock
Hamilton character’s biographical information. The
Cole character’s most important biographical
information—his name, Augustus “Cole Train” Cole—
bears absolutely no resemblance to the Hard Rock
Hamilton character’s name. The two characters’

22a
biographical similarities—Hard Rock Hamilton
formerly played football for the NFL’s Philadelphia
Eagles and the Cole character formerly played a
fictional game called thrashball for a fictional team
named the Eagles—do not suffice to overcome the fact
that the Plaintiffs do not identify any other aspects of
the Cole character’s biography (for instance, age or
birthplace) that are shared by the Cole character.
The Cole character’s likeness shares some broad
similarities with the Hard Rock Hamilton character.
On Plaintiff’s account, the two characters are both
large, muscular, African American males with similar
faces, hair styles, skin tone, and large body build.
However, the Cole character’s primary avatar wears
futuristic, cartoonish heavy armor on his torso and
carries various weaponry, as seen in Appendix B.
Hard Rock Hamilton does not wear any of these
clothing components. The primary Cole avatar does
not have a hat, jewelry, tie, or cuffs like Hard Rock
Hamilton. The fact that the two characters share a
broad likeness of skin tone, race, body build, and hair
style does not suffice to overcome the conclusion that
the Hard Rock Hamilton likeness is not the sum and
substance of the of the Cole character’s likeness.
Hamilton admits in his own testimony that the
Cole character’s persona is profoundly different from
the persona of Hard Rock Hamilton. Specifically,
Hamilton stated that, although he asserts that the
Cole character shares his likeness, the Cole character
“is ignorant, he’s boisterous and he shoots people, he
cusses people out, that’s not me. . . . And it’s totally
against what I believe in.” Deposition of Plaintiff
Lenwood Hamilton at 174:16-20. Hamilton went on to
assert that “for [Defendants] to take my likeness and
. . . portray me as a person that shoots people, curses

23a
their mom out, and cusses like [the Cole character]
does, that’s not portraying Hard Rock Hamilton. That
ain’t me . . . that’s not my temper. That’s not my
attitude. . . . [the Cole character] stands for totally the
opposite of what I was trying to do . . . .” Id. (quoting
Deposition of Plaintiff Lenwood Hamilton at 231:24232:10). Hamilton’s characterization of the profound
difference between the persona of the Cole character
and the persona of the Hard Rock Hamilton character
further bolsters the conclusion that the Cole character
transforms the Hard Rock Hamilton character.
The Kirby case informs my analysis of whether the
Cole character’s likeness, biographical information,
and persona constitute a transformative use of the
Hard Rock Hamilton character’s identity. Just as in
Kirby, even if there were “sufficient similarities”
between the Hard Rock Hamilton character and the
Cole character to preclude a conclusion that, as a
matter of law, the Cole character was not based in
part on Hard Rock Hamilton, I am “similarly unable
to conclude, as a matter of law, that” Cole is “nothing
other than an imitative character contrived of minor
digital enhancements and manipulations.” Id. at 616.
The
Cole
character’s
likeness,
biographical
information (including but not limited to the
Augustus “Cole Train” Cole name) and persona,
although it may be similar in some ways to the Hard
Rock Hamilton character, are absolutely not “the sum
and substance” of the Hard Rock Hamilton character’s
likeness and identity.
The Parties dispute whether the focus of my
analysis should be on the primary Cole character or
on the secondary Cole avatars. I do not reach this
issue because each of the Cole character avatars in
this case—the primary Cole avatar, the Superstar

24a
Cole avatar, and the Thrashball Cole avatar—
transforms the Cole character. Players can opt to use
the Superstar Cole and Thrashball Cole avatars only
in Gears of War 3 and Gears of War 4—the third and
fourth editions of the Gears of War series. Appendix C
includes a comparison of exemplary images of
Hamilton himself—not Hard Rock Hamilton—as a
football player compared to the Cole character as a
thrashball player. Even here, there are sufficient
creative differences between the two characters to
satisfy the Transformative Use standard. Thrashball
Cole again bears a different name, is depicted playing
a fictionalized sport (although the player cannot
actually use the Thrashball Cole to play thrashball in
the game context), wears boots, dons only pads
emblazoned with the number 83, and wears an
outsized belt over dirtied football pants with visible
stitching and what is ostensibly a cape. In contrast,
Hamilton’s footwear is not visible; he wears a small
belt with white football pants; he wears a full football
jersey; and Hamilton never wore the number 83.
And—again—Plaintiffs put forward no evidence that
the Thrashball Cole character is identified as a
professional wrestler or that the Thrashball Cole’s
transformative persona varies from the typical Cole
character persona.
Appendix D contains a comparison of exemplary
images of Superstar Cole and Hard Rock Hamilton.
Although Superstar Cole does in fact bear a closer
resemblance to Hard Rock Hamilton than the primary
Cole character, even the Superstar Cole character’s
physical likeness is sufficiently transformative to
satisfy the Transformative Use standard. In addition,
the Superstar Cole character again has a different
name than the Hard Rock Hamilton character.

25a
Plaintiffs put forward no evidence to suggest that the
Superstar Cole is a wrestler or that the Superstar Cole
character’s persona is different from the profoundly
transformative persona of the Cole character
generally. Finally, the Superstar Cole character wears
sunglasses and a heavily-worn undershirt with a
bracelet and band of fabric around his forearm that
differs from Hard Rock Hamilton, who wears a tie,
collared shirt, formal vest, no sunglasses, and a chain.
The optional Superstar Cole character’s persona,
likeness, and biographical information transform
Hard Rock Hamilton’s persona, likeness, and
biographical information.
2. The Cole Character’s context
In addition to the Cole character’s transformation
of the Hard Rock Hamilton character’s likeness,
biographical information, and personality, the Cole
character appears in the profoundly transformative
context of the Gears of War games. In the Gears of War
games, the Cole character does not—and cannot—
“do[] what the actual” Hard Rock Hamilton does.
Hart, 717 F.3d at 166. Hard Rock Hamilton performed
as a professional wrestler in Soul City Wrestling on
the planet Earth. In Gears of War, the Cole character
does not perform as a professional wrestler in Soul
City Wrestling on the planet Earth. This case is thus
different from Hart, discussed above, where the
digital avatar of plaintiff and Rutgers football star
quarterback Ryan Hart appeared in-game in the
context of playing as a Rutgers football star
quarterback during simulated Rutgers football games
in the Rutgers football stadium. See Hart, 717 F.3d at
166. This case is also distinguishable from No Doubt,
122 Cal. Rptr. 3d at 410-11, because the Cole
character does not even perform as a professional

26a
wrestler on the fictional planet Sera. In No Doubt, also
discussed above, digital avatars of the rock band No
Doubt appeared in the context of and were controlled
by players performing rock music as the rock band No
Doubt, with the only difference being the fictionalized
setting. Id.
Instead, the Cole character appears and performs
in Gears of War in an extraordinarily fanciful
situation. Players use the Cole character to battle
formerly-subterranean reptilian humanoids on the
fictional planet Sera as part of a broader military
engagement stemming from a fictional energy source.
Cole fights with other characters as a member of the
Delta Squad.These differences—between professional
wrestling on Earth as Hard Rock Hamilton and
battling formerly-subterranean reptilian humanoids
as the Cole character—is such a profoundly
transformative change in relevant context that even
taking Hamilton’s characterizations of the likeness
between the Cole character and Hard Rock Hamilton
in the light most favorable to Hamilton, Gears of War
is protected by the First Amendment under the
Transformative Use standard.
IV. CONCLUSION
I will grant Defendants’ motion for summary
judgment.
s/Anita B. Brody
__________________________
ANITA B. BRODY, J.
Copies VIA ECF on 9/26/2019

27a
Appendix A

Second Amended Complaint (“SAC”), Ex. B.

28a
Appendix B

Plaintiff’s Statement of Undisputed Material Facts ¶
9.

29a
Appendix C

Pl’s Statement of Facts at ¶ 20.

30a
Appendix D

31a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
____________________
No. 19-3495
____________________
LENWOOD HAMILTON,
a/k/a HARD ROCK or SKIP HAMILTON,
Appellant
v.
LESTER SPEIGHT,
a/k/a RASTA THE URBAN WARRIOR,
a/k/a AUGUSTUS “COLE TRAIN” COLE;
EPIC GAMES, INC.;
MICROSOFT, INC., a/k/a Microsoft Corp;
MICROSOFT STUDIOS; THE COALITION
____________________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil No. 2-17-cv-00169)
District Judge: Hon. Anita B. Brody
____________________
Submitted under Third Circuit L.A.R. 34.1(a)
September 10, 2020
Before: CHAGARES, HARDIMAN, and MATEY,
Circuit Judges.
(Opinion filed: September 17, 2020)

32a
____________________
JUDGMENT
____________________
This cause came to be considered on appeal from
the United States District Court for the Eastern
District of Pennsylvania and was submitted under
Third Circuit L.A.R. 34.1(a) on September 10, 2020.
On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the
order of the District Court entered September 26,
2019, is hereby AFFIRMED. Costs taxed against
Appellant.
All of the above in accordance with the Opinion of
the Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: September 17, 2020

33a
APPENDIX D
Pennsylvania Consolidated Statutes
Title 42 § 8316.
likeness.

Unauthorized use of name or

(a) Cause of action established—Any natural person
whose name or likeness has commercial value and is
used for any commercial or advertising purpose
without the written consent of such natural person or
the written consent of any of the parties authorized in
subsection (b) may bring an action to enjoin such
unauthorized use and to recover damages for any loss
or injury sustained by such use.

